                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM




An allegation of misconduct in science against the subject' was received from the complainant.*
The specific allegation was that the subject did not have the proper Bureau of Land Management
(BLM) permits for excavations in the-2000field season, and that bones collected by the subject
and his associates were improperly removed fiom the state.3 It was determined that the fieldwork
was supported by NSF.4 The complainant represented a third individual5in legal actions
involving a state institution, BLM, and the subject. Information about this case was gathered
from the 'subject, the subject's institution, and fiom the agency.

At the time of the subject's activities, BLM permits were designed to allow for flexibility to
maximize research productivity and minimize dependence on office paperwork. Consequently,
oral and emailed communications were permitted in lieu of formal written communications.
When the subject arrived at the site for the dig, the subject believed he had arranged for a valid
permit. This was untrue. However, BLM allowed the subject to make informal arrangements to
be added to an existing permit. BLM expected the parties to discuss and agree on the terms of
arrangement between themselves. No agreement on terms occurred. The two parties, site-
coincident investigators, developed different research directions at the same site, and the
professional relationship between the investigators became strained. It is apparently due to this
strain that the charges of obstruction of access or specimen destruction were made.

Because BLM acknowledges internal disagreement in the scope and conditions of the permits
under which the subject carried out his field research, it is impossible to make a clear
determination of whether the subject had the proper permits at the proper times for the actions
undertaken at the site. Since the allegation cannot be resolved unambiguously, and the
disposition of the excavated bones has been resolved, and because there is no evidence for
damage to NSF interests, the case should be closed.

The only remaining issue concerns the way in which the subject's institution handled the matter.
The subject's university claims that they were not required to notify NSF of their early and
ongoing involvement in this case because there were no substantiated allegations of research
misconduct. However, the relevant statement in the Grant General Conditions is "any significant
problems relating to the administration of an award." Significant problems were readily

' redacted
  redacted
   It is the awardee's responsibility to obtain proper permits.
  redacted
' redacted
                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A02040027
                                                                            I          Page 2 of 2



     apparent. The University has not met the conditions of grant administration outlined in the Grant
     General Conditions. A letter describing our concerns about these administrative issues is being
     sent to the University in conjunction with the close of this case.

     Accordingly, this case is closed.
